  IMPLEMENTATION OF THE STATE

 LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

 REFORM AND CONTROL ACT OF 1986


                  STA TE   OF   COLORADO




   1t"diO




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                           OCTOBER 1989
                                                                                                ,:'




                        OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector Genera (DIG) is to promote the effciency, effective­
ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing methods to detet and prevent fraud, waste , and
abuse. Created by statute in 1976, the Inspector General keeps both the Secreta and the Con­
gress fully and curently informed about programs or management problems and recommends
corrctive action. The OIG perform its mission by conducting audits, investigations, and in­
spections with approximately 1 300 sta strategically located around the countr.




                     OFFICE OF ANALYSIS AND INSPECTIONS


This repon is produced by the Offce of Analysis and Inspections (OAI), one of the thee
major offices within the DIG. The other two are the Office of Audit and the Offce of Investi­
gations. Inspections are conducted in accordance with professional stadads developed
OAI. These inspections are tyically shon-term studies designed to determe program effec­
tiveness, efficiency, and vulnerabilty to frud or abuse.

This study was conducted to determne the effectiveness of Colorado s implementation of
State Legalization Impact Assistance Grants funds awarded under the Immgration Reform
and Control Act of 1986.


The repon was prepared under the dition of Don McLaughlin , the Regional Inspector Gen­
eral of Region VII , Offce of Analysis and Inspections. Parcipatig in this project were the
following people:



Kansas City                                  San Francisco
Hugh Owens, Project Leader                   Apryl Williams
Raymond Balandron
James Wolf
Alicia Smith

Headquarters                                New York
Alben 1. Nace                               Lucile M. Cop
Debra Robinson
 IMPLEMENTATION OF THE STATE

LEGALIZATION IMPACT ASSISTANCE

GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                    STATE       OF   COLORADO




                            Richard P. Kusserow
                            INSPECTOR GENERAL




OAI- 07 -88-00443                                 OCTOBER 1989
                                EXECUTIVE SUMMARY


PURPOSE
The purose of ths inspection was to determe how effectively Colorado implemented the
State Legalzation Impact Assistace Grants (SLIAG) program, to identify potential problems
early in the process, and to identiy goo practices which al States could share.

BACKGROUND

The SLIAG progr was established under the Imgration Reform and Control Act (IRCA)
of 1986 to reuce the fmancial burden of providig public assistace, public health assistace,
and educational servces to eligible legalze alens. In Fiscal Year (F) 1988, $928. mion
in progr funds were alocated to States, and funds wi contiue to be alocated though FY
1991. These fuds also cover admstrtive costs for implementing SLIAG at the State and
local levels. Payments ar made for public assistace activities generaly available to
neey individuals and publi health assistance servces offered under the States ' public health
progrs. The payments also cover educational servces designed to assist eligible legalze
alens to attai a satisfactory level of performce in school and to achieve English language
proficiency and citizenship skis necessar to become permanent residents. The Famy
Suppon Admnistrtion (FSA) is responsible for      adsterig    the progr.

Because SLIAG was a new progr, FSA realze that problems would surace early in its
implementation. In addtion to the norm diculties encountered in cratig new processes
and proedures, FSA recognized that SLIAG would have unque problems. Some of these
issues include the diversity of program which SLIAG encompasses, cultu and language
barers associated with the servce population , maitaning confdentialty of informtion , and
the extremely short time fres     for the grt award process.

METHODOLOGY

In response to the anticipated diculties   with implementing SLIAG, FSA requested that the
Offce of Inspetor General (OIG) conduct reviews in 10 States to determne the progress of
States ' implementing this progr. The FSA selected nine States and the Distrct of Columbia
because of the varety of program they offere the number of eligible legalized aliens in the
population, or the amount of the grant. The nine States are Arzona, California, Colorado,
Florida, Ilois, Massachusett, New York , Texas, and Washington.

Intervews based on   strctu    discussion guides for each major program ara, as well as
documentation fuished by FSA and State and local offcials, built the base of information for
this report. Ths report represents the review conducted in the State of Colorado and reports
on its implementation of the SLIAG program as of August 1988.
Both FSA and Colorado were commtted to identifying problems and developing innovative
and effective solutions for them. Imedately following our on-site visits, FSA was given an
outline of the State concerns identied in ths report

FINDING:    Since     FSA ha held national conferences and issued informtion to States
                    1987.

on imlementing the SUAG program.


             The FSA held several national conferences begining in 1987 to share
             inormation with States on SLIAG legislation , the implications for States, the
             application process, and the documentation of costs.

             The FSA also provided States with " Question and Answer" issuances and
             demographic data from the Imgration and Natulization Servce (IS).


FINDING: Colorad established a strctue to identify organizational and program needs.


             Thugh a Medical Case Management Progr, the Colorado Deparent of
             Health intends to elevate the health status of needy individuals to approximately
             that of the State s general population.

             The Colorado Deparent   of Health also intends to recrit, hi, tr, and
             supervse parprofessional communty health workers who are ethcaly,
             liguisticaly, and cultually sensitive   to its servce population.

             Agencies seekig to provide SLIAG-related educational servces for eligible
             legalze alens must develop outreach activities and identiy these in their grant
             proposals to the Colorao Deparent of Education.



FINDING: Colorad also took steps to document exenditures and contrQI disbursements.

              At the tie of the inspection , Colorado was adapting existing automated systems
              to reimburse counties for cash and medcal assistance to eligible legalzed alens.

              Since expenditues must occur before reimbursement is made, the system used
              will show whether any excess cash balances exist at the service provider level.

              Under funding agreements with the Colorado Deparent of Education
              educational providers must separately account for SLIAG expenditues before
              reimburement is made. These agencies must collect and report data veriying
                 enrollment, attendace, progress, certfication , and program expenditus to the
                 deparent.
Neverteless, there are some funds contrl vulnerabilties.

FINDING: Conflicting interpretations of the term "public charge "       ha caused      uncertainties
for the aliens as to what services they are entitled to receive without fear   of deportation.



                 Some members of the alen population fear that acceptig benefits would subject
                 them to possible deporttion if they ar identied as a "public charge, " as
                 defied by the INS. Ths uncertnty ultitely affects the State s abilty to plan
                 for and provide servces to eligible legalze alens.


FINDING: The State ha not developed a method to determine education program
adinistrative costs.
FINDING: The FSA application review process created         anumer of signifcant problems for
Colorad.    Also, the FSA's application review process interfered with the State s ability to plan
for services.




                 Delay in FSA issuig the implementig regulation resulted in the State
                 inabilty to properly plan for SLIAG.



                 Numerous policy misinterpretations and disagreements resulted because FSA
                 did not provide definitive wrtten instrctions to assist Colorao in
                 understadig SLIAG application requirements.


                 The tie frames were too short for submittg the intial SLIAG application
                 FSA review and comment, and revisions of the application.

                 No formal appeals process exists if. progrs or costs ar   denied in   the fIrst level
                 review.


As mentioned earlier, FSA and Colorao have aleady initiated action on some of the
recommendations made in this report. Steps have been taen by FSA to provide States with
more specific, formal guidelines for identifyg and documentig actual program and
admistrative costs. However, additional actions ar necessar in other areas on the par of
FSA and Colorado.
RECOMMENDATION: The FSA and the INS should further clarify what is meant by
 public charge " and widely disseminate this informtion to the aliens who have raised
concerns about their resident statu.

RECOMMENDATION: The Colorad Department of Education should ensure that
providers of educational services are properly calculating education program adinistrative
costs.

RECOMMENDATION: The FSA should make its application and grant process more
orderly. Specifcally,            SA should




                        provide defitive wrtten instrctions on the SLIAG application requirments
                        and establish a dialogue with Colorao on SLIAG policy, compliance, and
                        reportg issues to miime the confsion that occUIed in the intial application
                        process;

                        ensur that sufficient tie   is alotted to the application process includig
                        Colorado s intial application , FSA' s review and formal comment, Colorado
                        consideration of FSA comments and negotiation of disputes, and its submission
                        of the revised application for FSA approval; and

                        develop an appeals process to use if programs or costs associated with providig
                        servces are denied in the intial application proess.


COMMENTS

The FSA and the State of Colorao both commente on the drt report They generay
agree with our fmdigs and recommndations. Both reported havig taen a number of                    steps
to improve implementig SLIG. Their comments are included as appendices B and C,
respectively.
                                                                         ....... .....
                                                                                   .... ... ..................
                                                                                              ..................
                                                                                         ......




                                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY



I NTROD U CTIO N ................ .... ......... ............ .... ...... ..... .................8118........ ....... ... 81D...... 8 1



COLORADO' S ORGANIZATIONAL STRUCTURE................................................ 3


FINDINGS AND RECOMMENDATIONS ...................0......................................e....... 4


              Pu bl i c Assistance ...                 II II.. II II.. II II.. II II ... II         II...   II ... II II.. II... II II." II... II ... II ... a... II II...   II II. II II..
                                                                                                                                                                             II
              II II II.. II 



              Pu bl ic Health Assistance .... .... .... II.. .... .... II... II II.. II II.. II II.. II ... II II.. II..a.. 111111

                                                                                                                               II... II ... II.. II II... II 9





              Ed ucati on ... II....11.. II ....... ..... II....... II..II II.. II II                                          II".. II II.. II II.. II...   II.... II
                                                                                                                                                             II      11..11...
                                                                                                                                                                        
      II ...    II II.. II      12


              Crosscuttin 9 Issues ... ..... II                                               II
                               II II.. II II..   ................. ........ .... 15


OIG RESPONSE TO COMMENTS ..........................................................e............... 18


APPENDICES


              APPENDIX A: Good Practi ces Ii ....... ..... .... ... II...... ..11... ..1111.11.. .... ..1111.....a....... A­


              APPENDIX B: FSA' s Comments .........UI........................II..............._..... B­


              APPENDIX C: Colorado s Comments.......................................... C-1

                                     INTRODUCTION



PURPOSE
The Famy Support Admstrtion (FSA) requested that the Offce of Inspector General
(OIG) conduct an inspection in nie States and the Distrct of Columbia to determe the
effectiveness of the States ' implementation of the S tate Legalzation Impact Assistace Grants
(SLIAG) progr awarded under the Imgrtion Reform and Control Act (lCA) of 1986.
The inspection included reviewig mechanisms in place to identify these funds and
determg whether present or projected policies and proedures adere to FSA gudelies.
The FSA also was interested in identig potential problems early in the process and goo
practices which al States could shar. Ths report presents the results of the inspection
pertg      to the State of Colorao.


BACKGROUND

Under IRCA. eligible legalze alens may apply for permanent residency within a I- year
period afer they are flIt eligible (Le., by the 31st month after they receive temporar resident
status).

Ths new population wi incrase the demand for State public assistace and public health
assistace servces signcantly. It wi also incrase the demand for State educational
servces as these new residents obta English language and civic skis needed to become
  S. citizens.

To help States defray many of the costs of providig public assistace, public health assistace
and educational servces to eligible legalze alens, IRCA authorized $1 bilon each year
frm Fiscal Years  (F    1988 though 1991 for SLIG grts, less an amount identied as the
 Federa offset. " With few exceptions, eligible legalze alens ar ineligible for federaly
funded public assistace progrs such as Aid to Fames with Dependent Chidren (AFC),
foo staps, and Medcaid. The "Federa offset" is the estimated cost to the Federa
Governent of providing these servces or benefits to those few legalize aliens who ar
eligible for them. In FY 1988, the law allocate $928. mion to States.

To receive SLIAG fuds, States must apply to the FSA Division of State Legalation
Assistace, which is responsible for approvjng applications and adnistering the program.
The application must be approved in tota for a State to receive any SLIAG funds. The FSA
also provides States with technical assistance on policy issues and on the methods used to
determne costs and verify actual costs.
The basic requiment for States to claim reimburement is that costs must be alowable,
reasonable, and allocable. State public assistance and public health   assistance   program must
be the same ones available to the general public. States cannot create new program in these
areas specifcaly for eligible legalze aliens. However, States may create new or additional
education progrs for the eligible legalzed alen population. States may also clai
reimbursement for progr adstrtive and SLIAG admstrative costs.

Reimburement for public assistace and public health assistace is lited only to the amount
of State and local funds expended for SLIAG-related costs. The maum SLIAG
reimbursement for educational servces is an average of $500 per year per eligible legalze
alen. Determg progr adistrtive costs should be made in accordace with the fial
reguation at 45 CF 402. 22.

The FSA is responsible for adsterig     the program Because SLIAG was a new program,
FSA  real     that problems would surace early in its implementation. In adtion to the
norm diculties encountere in creatig new processes and proedures, FSA recogned
that SLIG would have unque problems. Some of these issues include the diversity of
progrs which SLIAG encompasses, cultual and language barers associated with the
servce population , maitaing confidentiity of information , and the extrmely short        tie
fres   for the grant award process.


METHODOLOGY

The FSA selected nie States and the Distrct of Columbia for the inspection because of the
varety of progr     offered, the number of eligible legalze aliens in the population , or the
amount of the grt. The nine States are Arona, Calornia, Colorado, Florida, llinois,
Massachusetts, New York, Texas, and Washigton. This report reviews Colorado
implementation of the SLIAG progr as of August 1988.

Pror to conductig the inspetion, the OIG developed strctu discussion gudes for each
major program activity at the State and local levels. In conductig this review, intervews
were held with offcials from public assistace, public health, and education.
                COLORADO' S ORGANIZATIONAL STRUCTURE



In the State of Colorado, the Governor has designated the Colorado Deparent of Social
Servces as the responsible adisterig agency for the SLIAG progr. Under the
designation , the executive ditor of the Colorado Deparent of Social Servces is
specifcaly authori to apply for and accept SLIAG funding and to provide assurces and
certcations, as reuired by Federal regulations, to the U. S. Deparent of Health and
Human Servces. With the Colorado Deparent of Social Servces, the executive dictor
has designated the State Coordinator of the Colorado Refugee and Immgrant Servces
Prgram as the single point of contact.

The Colorado Deparent of Social Services
progr
                                             aclters the State s public assistance
          though the county Deparents of Social Servces. Other program admnistered
by the Colorado Deparent of Social Servces ar the Medcaly Indigent        Progr,
Medcaid, public assistace programs, and the Systematic Alen Verification for Entitlements
system. The Medcaly Indigent    Prgr   is cared out thugh provider contracts.

The Colorado Deparent of Health has entere into a cooperative agrment with the
Colorado Deparent of Social Servces to provide public health plang, coordiation
adstration, deliver, Medcal Case Management, and Medcaly Indigen voucherig
servces, under the SLIAG    progr. Simarly, the Colorao Deparent of Education has
entere into a cooperative agrment with the Colorao Deparent of Social Servces to
provide services under the SLIAG program Such services include education planning,
coordiation and adstration , and contracts for adult education servces and     elementar
and seconda education servces conducted by local education agencies.

Colorao intends to use existig servce delivery and fundig mechansms, and to use
providers of servce to accommodte the nees of the eligible legalzed alens. The
avaiabilty of those servces ar lited to those generay available to other Colorado
residents.

Parcipatig servce   providers must be able to identi eligible legald alens except where
Federa reguations permt establishing costs on the basis of a ratio between the State s tota
population and the number of alens in the State. The exception primarly relates to public
health servces. As far as public assistace and education ar concerned, Colorao
                        eligible legalze alen by presentig an 1- 688, Temporar Resident
reuire identication of an
Card issued by the Imgrtion and Natualization Servce (INS). The 1-688, Tempora
Resident Car wil identiy the eligible legalize alen by an alien registration number.
                            FINDINGS AND RECOMMENDATIONS



Both FSA and Colorado were commtted to identiying problems and developing effective
solutions for them. Imedately following our on-site visits, FSA was given an outle of the
State concerns identied in this report

FINDING:    Since   1987,    FSA ha held national conferences and issued informtion to States
on implementing the SUAG program.


             The -FSA  held several national conferences   begig  in 1987 to share
             inormation with States on SLIAG legislation , the implications for States, the
             application process, and the documentation of costs.

             The FSA also provided States with " Question and Answer" issuances and
             demographic data frm the INS.



FINDING: Colorad established a strcture to identify organizational and program needs.


             Thugh a Medical Cae Management Progr, the Colorado Deparent of
             Health intends to elevate the health status of needy individuals to approxiately
             that of the State s general population.

              The Colorado Deparent   of Health also intends to recrit, hi, trin, and
              supervse parprofessional communty health workers who are ethcaly,
              liguisticaly, and    cultuy sensitive to its servce population.
              To increase involvement of eligible legalze alens in educational programs, a
              local organzation choosing to offer services to eligible legalze alens wil
              reuired to develop signcant outrach activities. These wi be submitted as
              par of the Plan of Servce. submitted to the Colorado Deparent of Education
              SLIAG Adult Education Offce in response to a request for proposals.



FINDING: Colorad also took steps to document exenditures and control disbursements.
                Because counties admster cash assistace programs in the State, the State had
                no system to reimburse counties for SLIAG-relate expenditues. At the time of
                the inspection , Colorao was developing such a system. To clai
                reimburement, counties will use existig automated systems-the Client
                Orented Information Network and the Medcaid Management Information
                System-to document,    accumulate, and report progr costs for individuals
                presentig the 1- 688, Temporar Resident Card. In the foster care payroll
                system, provider payments wil   be identied using two   new distict category
                cods.

                Since expenditus must occur before reimbursement is made, the system used
                wi show whether any excess cash balances exist at the servce provider level.


                Under fudig agrments with the Colorao Deparent of Education , varous
                agencies that can provide an ongoing adult basic education program must
                separately account for SLIAG expenditus before reimburement is made. The
                agreements stipulate that agencies reeivig fuds under SLIAG must collect
                and report data to the Colorado Deparnt of Education. They wi then
                document or verify enrollent, attendace, progress, certcation, and program
                expenditues.


Nevereless, some funds control vunerabilties exist      Findings and recommendations
concerng these vulnerabilties follow under      major topic aras.




PUBLIC ASSISTANCE

Assistance or Serve Activities

Colorado offers a number of public assistace program and servces to its residents. The
eligibilty reuirements for these servces are that the individual should be born in the United
States, be a   natual refugee, or be an alien legaly residing in the Unite States. No
duration of residency reuirments exist

Under public assistace in Colorado, county Deparents of Social Servces        adster all
cash assistace program. Colorado is using the existig servce delivery proess for
SLIAG-relate servces and wi be offsettng 100 percent of State and county costs for
providig these cash assistance program to eligible legalzed alens.

For the time being, the State has chosen to make legalized aliens eligible for State and county
public assistance progrs. These progrs include Old Age Pension- B and Aid to the
Needy Disabled classifed as " genera assistance" by SLIAG. However, eligible legalized
alens wil possibly be disqualfiedfrm eligibilty for Old Age Pension- B Prgram and/or Aid
to the Needy Disabled Progr benefits if funding to meet the projected number of eligible
legal    alens needing those benefits is not available. Counties may also disqual eligible
legaled alens frm local general assistace benefits.

Colorado believes that because eligible legalze alens are bar frm AFC, they wi use
public cash assistace only  mially. In adtion, the numbers of disabled or aged
individuals seekig assistace ar projecte to be proportonately smal. Also, most eligible
legal     alens are self-suffcient because they have been workig and wi have to prove ths
for legalzation. However, State offcials are concerned that people who are eligible for
assistace wi hesitate to seek it because of the INS "public charge " policy.

FINDING: Conflicting interpretatins of the term lIpublic charge " ha causef, uncertainties
for the aliens as to what services they are entitled to receive without fear   of deportation.


Some people ar    afd    to identiy themselves as alens for fear of being considere a "public
charge. " As a result, alens ar uncert about benefits they may be entitled to and whether
acceptig these benefits would subject them to possible deponation if they ar identified as a
 public charge.

RECOMMENDATION: The FSA and the INS should fuher clarify what is meant by
 public charge " and widely disseminate this informtion to the aliens who hae raised
concerns about their resident statu.

For medcal assistace benefits under public assistace, the Deparent of Social Servces
wi use contracts drawn between it and the medcal providers. In accordace with the
contrcts, these providers wi be reimbured for providig health car to the medically
indigent The Medically Indigent Progr for eligible legalzed aliens will follow the same
practices as the State s curent Medcaly Indigent Progr, including the coverage of servces
and the patient s abilty to pay. Contrcts wi stipulate that the Medcaly Indigent Prgram
wi reimbure providers at 100 percent of their costs for servces to eligible legalzed alens;
however, ths is only afer patient responsibilty and any thd par responsibilty are
deducted

For eligible legalze alens located in an ara not served by a Medcaly Indigent Prgram
provider, the Deparent of Social Servces has entere into a cooperative agrment with the
Deparent of Health. These providers wil contrct for servces furished to the general
population and must submit to the Deparent of Social Services a voucher for
reimbursement of the services.
Only a lited number of eligible legalized aliens will meet the categorical eligibilty
requirments for Medcaid in Colorado. They would have to meet the eligibilty requirments
for the State s Old Age Pension Progr, the Supplementa Securty Income Aid to the
Disabled Progr, pregnant women, emergency medical care servces, or children covered
under AFC who are under 18 year of age.

Legalze alens who ar eligible for any of the public assistace programs adstered
county Deparents of Social Servces will be served in a maner identical to the rest of
Colorado s population.

Coloro wi be providig foster car maintenance and claig SLIAG fundig for the
eligible legalze alen childrn who meet AFC eligibilty reuirements. For them, Colorado
wi provide foo, clothg, and shelter.
Documentaton of Eligible Legalized Alien Stats

In Colorado, the intae proess for benefits wi include askig the applicant for identication
as an eligible legalze alen. It wi be necessar for eligible   legal alens to present to the
intae personnel their 1- 688, Temporar Resident Car. Ths is the only prof of identication
Colorado wi accept. When an eligible legalze alen later becomes a permanent resident,
the Resident Alen Car (1- 551) would be acceptable.

Program Costs

In Colorado, the non-Federal shar of the cost of cash and other assistace provided to eligible
legal     alens wil be fully reimbured frm SLIAG funds. The identication number
each eligible legal aliens s 1- 688 wi be used in alady-existig automated systems-the
Clent Orented Inormation Network and the Medcaid Management Inormation System-to
document, accumulate, repor and reimburse progr costs. For public assistace, the
process is covere below:


             The cash assistace payments for the Old Age Pension     Progr and for the Aid
             to the Neey Disabled   Progr  will be identied on a report generat d by the
             Client Orented Inormation Network and wil be the basis for Federal      claig
             puroses. Since the State was not reimbursing counties for general assistace
             expenditus, Colorado is developing a unique system which wil be agreeable to
             both the State and county. Under the IV-E Prgram (foster care maintenance),
             foster care provider payments made on behalf of eligible legalized aliens wil be
             identified in the foster care payroll system using two new distinct category codes.
              To identiy eligible legaled alen Medcaid expenditues the State wil use a
              proess simar to the one used for refugee Medcaid expenditues. Eligible
              legalze alens wil be identified as a unique subset withn the Medicaid
              Management Information System.



The progr costs identied wi     be shown on a Federa financial report required anualy    by
SLIAG reguations.

Administratve Costs



Colorado s identication of public assistace progr adstrtive costs for SLIAG wil be
accomplished by applying ' caseload percentages to the tota costs. For example, the
unduplicate caseload percentage for SLIAG would be applied to al Medcaid admstrative
costs, resultig in the SLIAG Medcaid-relate  adstrtive         costs.

For reportg puroses, 50 percent wi be claied under the SLIAG grt and 50 percent
be claied under the reguar title XI Medcaid   progr   The caseload statistics for both
SLIAG and the enti population wi be used to identi the population for whom
reimbursement is being     claied
State reimburement to the counties for admistrative costs for those progrs with a 20
percent county shar (Aid to the Neey Disabled AFC-Foster Car, and fOO staps)
occur quarrly thugh use of a unque program code. A unique object code wi identi
each program shown separtely on the reports to the county.

The counties wi clai salares and frge benefits frm the State by proratig portons of the
sta salares. A specifc Tun Distrbution Sheet is to be used by sta for any  tie   spent on
SLIG. A percentage would be derived by dividig the    tie   spent on SLIAG by the tota
tie in the month. Ths percentage is applied to the salar and frge benefits paid that month
and the amount that is reported to the State Accountig and Puchasing Division using the
unque progr code. Operating costs that can be diectly identied to the progr would
also be reported by use of the unique progr code.

Drawdown of Funds and Cash Balances

The Deparent of Social Servces is the grtee agency and is responsible for drwdown of
Federa fuds, disbursing funds to the State agencies providig SLIAG-related servces , and
reportng these expenditus to FSA.

                      will be prepar based on actual expenditus when possible. The
A Federa letter of crdit
agency wil draw down funds to cover expenditus once a week or as often as watanted.
The Federa funds wi   be use to reimburse services on a monthly basis, using one-twelfth of
the projecte costs submitted in the SLIAG application. At the end of the fit  quarer, an
adjustment will be made of actual costs to estimated costs. The adjustment wil then be
applied in the succeeg quarers ' drwdowns. A pattern of expenditus based on actual
costs wi then be established as a basis for the Federal drwdown. Cash balances are
monitored and a schedule of Federa drawdowns is prepar and recorded as often as the
drws occur.

No cash balances exist at the servce provider level since the expenditue   must have OCCUled
befor reuest for reimburement can be made.


PUBLIC    HEALTH ASSISTANCE

Assistance or Serve Activities

The Deparent of Health has entere into a cooperative agrment with the Deparent of
Social Servces to provide public health assistace to eligible  legal  alens when such
assistace is otherwse generaly avaiable to all citizens residig in Colorado and for the
generaIpublic s health protection. The Deparent of Health' s public health treatment
progr either provides the necessar servces or reimbures county or local health agencies
for the servces. Although these public health servces ar funded by State and local monies,
when these services ar provide to eligible legalze alens, the costs ar 100 percent
federay reimburable under    SLIAG.
The Deparent of    Health and/or public health facities   wi provide the followig servces to
eligile legalze alens:


             tuberculosis screening, tratment, and any    necessar public health follow-ups;

             tratment and case    management of sexually transmitted disease such as
             gonorhea and syphils; and

             case reportg   and   maagement of Acquired Imune Deficiency Syndrme.

It wi also be the responsibilty of the Deparent of Health to


             coordinate a Medical Case Management Prgram to elevate the health status of
             neey individuals to a level approximating that of the genera population of the
             State;
              recrt, hie, trn, and supervise    parprofessional community health workers
              who are ethcaly,    linguistically, and cultually sensitive to its servce
              population;

              negotiate and subcontract the services of community health workers with local
              health deparents, communty cliics, hospitals, and other appropriate local
              health entities where they exist;

              coordiate a medical   authorization system for its servce population in cities,
              towns, or counties of the State where a Medicaly Indigent Progr provider is
              not reasonably accessible; and

             operate a medical authoriation system for payments to local health care
             providers, COIIunty clics, and hospitas that agre to provide medcal
             servces to neey individuals. Cost of reimbursement cannot excee the
             Deparent of Social Services ' Medicaly Indigent Program rates for simar
              servces.


Documentaton of Eligible Legalized Alien Stats

The public health agencies providig services have amended the existig intae process to
identiy eligible legalze alens. When potential eligible legalze aliens go in for servces,
they ar asked if they have reently adjusted their residency status. The informtion is taen
in confdence. If the individual is an eligible legalze alen , he or she must present the 1- 688,
Tempora Resident Card, and the health agency will record the alen registrtion number. To
clai SLIAG money, the agency must see ths car with the identication number.


Program Costs

Individual eligible legalze alens ar being identied and the individual cases followed to
doument health servces and keep trck of costs. Costs of preventative or educational health
servces are determed using a population ratio method

Colorado s system provides for a full audit   tr. Strngent controls are set up to support it. In
monitorig progr      costs, the Deparent      of Health is reuir to report to the Deparent of
Social Servces. The Deparent of Social Servces monitors al         public health   expenditus
for compliance with SLIAG requirments. In         carg out this responsibilty, the Deparent
of Health has designated an eligible legalize alien public health coordnator to be responsible
for al report and to present and explain them at monthly Refugee and     Imgrt     Services
Program contrctor meetigs.

  To aid in gatherig           on eligible legalze aliens, the Deparent of Health has
                       some data
 developed a system to matain   a registr of eligible legalize alens who ar tested and
 trated for tuberculosis. On a quarerly basis, the Deparent of Health submits to the
 Deparent of Social Servces a biling for tuberculosis testig and treatment, medical case
 management, and authorization. Also on a quarerly basis, the Deparent of Health has to
 submit a mUTative report includig at least (1) the tota number of eligible legalze alens who
 were tested and trated for tuberculosis, (2) the progress and activities of the medcal case
 maagers, and (3) any actions the Deparent of Social Servces requird them to perform.

 The Deparent of Health must also submit two reports at the end of the fiscal year. These
 reports cover two separate period in the fiscal year and include at least the followig
 inormation: (1) the actual SLIAG-related costs incured durng the fiscal year for each public
 health progr identied in Colorao s application , (2) the Deparent of Health' s SLIAG
 adtrative costs, and (3) the amount of SLIAG funds obligated to each public health
 progr and the tie period for which the funds were obligated.
 Administratve Costs



  The Deparent of Health has developed tight budget reguations coverig SLIAG and has
  the necessar accountig system in place to document adnistrative costs. To keep trck of
  al expenditus, the Deparent of Health has established separate agency budget ledgers for
  each cost item. Costs ar alocated by time sheets, and expenditues wi be claied based
. upon prorate salares and frge benefits. Travel costs encompass in- State costs for disease
  contrl sta, in- State costs for public health staf, and out-of- State costs for public health sta.
  Also included in adistrative costs are operatig and equipment costs. The Deparent of
  Health wi use an indict cost rate approved by the U. S. Deparent of Health and Human
  Servces, the cognant Federal agency. These costs ar included in the two fiscal year reports
  submitt to the Deparent of Social Servces.

 Drawdown of Funds and Cash Balances

 To obta reimburement for servces rendere, the Deparent of Health has to submit the
 appropriate report to the Deparent of Social Servces. This report is the supportng
 documentation used to reimbure the Deparent of Health by          trsferrg
                                                                          the funds though
 an interagency voucher or by a dict vouchering process. The Deparent of Social Services
 does not advance any funds for program costs.
EDUCATION

Assistance or Servce Activities

The Deparent of Education has entered into a cooperative agreement with the Deparent
of Social Servces to provide educational servces to eligible legalze alens. Even before the
implementation of SLIAG reguations, the Deparnt of Education has had a goo reputation
and has been a long-term consultat to agencies providig qualty educational servces to
individuals with lited English-speakg skils. The Deparent of Education is staed with
well-qualed individuals and an extensive servce network which can rapidly implement
additional services.

In Colorado, the educational servces to be provided under SLIAG wi be those allowed
under the Adult Education Act, Emergency Imgrant Education Act, and other programs
designed to enable eligible legalze aliens to att  citizenship skis      reui
                                                                          by INS to
adjust to permanent resident alen status.



providers of services to themthugh
The followig adult education services wil be available for adult eligible legalize   alens and




             instrction in basicskis to enable adults to function effectively in society
             (includig the abilty to speak, read and wrte the English language);

             instrction leadng to the equivalent of a certcate of gruation from a school
             providig seconda education;

             instrction for adults with limited   English proficiency;

             instrction in citizenship skills; and

             ancilar servces   to local providers includig   cunculum development, teacher
             traig, and   evaluation.



If the local elementar and seonda educational agency meets the enrllment theshold
requied by SLIAG, it can use SLIAG funds to provide these servces for children:


             supplementa educational services necessar to enable childrn     to achieve
             satisfactory level of performance, includig English language   instrction ,   other
             bilngual servces, and special materials and supplies;
              adtional basic   instrctional services that ar diectly attrbutable    to the
              presence in the school distrct of immgrant children , includig the costs of
              providig additional classrom supplies; overhead costs; costs of constrction
              acquisition , or renta of space; costs of transportation; or such costs diectly
              attbutable to such   adtional basic instrctional servces; and

              essential in-servce traing for personnel   who provide instrction to    immgrant
              chidren.


The SLIAG Adult Education Offce wi issue a request for proposals to local Adult Basic
Education Progr sites and interested public or private nonprofit agencies statewide.
Prposals wi be reviewed by the SLIAG adult education progr manager in the
Deparent of Education with assistace from a commtt. Review crteri wi be published
in the reuest fQr proposal. The Deparent of Education will evaluate al progrs
determe if they meet SLIAG crteria for educational delivery systems and wi recogn
those that ar awared fudig as approved progrs. It is anticipated that approximately 30
progrs wi be selected for fundig. The request for proposal process was selected to
ensure that al intereste community- based organzations would be faily considered.



A local organzation choosing to offer educational servces to eligible legaliz aliens wil be
reuied to develop signifcant outrach activities as par of its Plan of Service. The Plan of
Servce wi be submitted to the State Adult Education Offce for approval in response to the
request for proposal. To assur success, outreach effort wi have to include requests for
referrs from varous communty progrs that come in contact with eligible legalze alens.


  fudig floor wi be established for those progrs where smal numbers would result in a
reimbursement too smal to cover the cost of instrction. SLIAG fundig to a service provider
is to be the lesser of actual costs or $500 multiplied by the number of eligible   legal aliens
served

The SLIAG funds wi be alocated to local educational agencies using the Emergency
Imgrt      Education Act guidelines and mechanisms. Because of the enrllent thshold
reuired for SLIAG, very few school distrcts, if any, wi be eligible for reimburement.
Furermore, many eligible legalze alen childrn wi be eliated frm the eligible pool
because of the attendace requiment of fewer than 3 ful academic year in U. S. schools.
Therefore, budget projections for the elementar and seconda schools are minima.

The Deparent of Education wil request applications frm local education agencies for
fundig. Unti ths proess is completed it wil be diffcult to assess actual eligible programs.
Documentaton of Eligible Legalized Alien Stats

The Deparent of Education wi mody its basic enrllent form to identi eligible
legal     alen students for SLIAG puroses. The moded form wi ask for information
related strctly to eligible legalze aliens. As par of the enrollent intae proess, the
eligible legalze alen must show the 1- 688, Temporar Resident Car, or SLIAG money
canot be claied. Although a computer system was not set up to record this information for
documentig costs, it was to be in the futue.

Program Costs

The Deparent of Education enters into fundig agrments with varous agencies that
able to provide an ongoing adult basic education program The fudig agreements stipulate
that agencies reeiving funds under SLIAG must collect and report data to th Deparent of
Education documentig or   verig     enrollment, attendace, progrss, certcation , and
progr expenditus. In addition, the fudig agreement also stipulates that the provider
wi mata a separate accountig for SLIAG funds obtaied though the agrement. It wil
conta a reord of al reimburable progr expenditus requested frm the Deparent of
Education. Ths includes a complete record of how funds were spent and a listing of the
reipients of such funds. Servce providers may reuest reimburement from the Deparent
of Education on a monthy, quarerly, semi-anual, or anual basis.

Administratve Costs



The Deparent of Education, in accordce with the SLIAG reguation, has a 1. 5 percent
lit on   adstrtive costs. These costs are made up of management and supervisory
activities necessar for the State educational agency to dit and contrl developing and
overseeing the progr. These costs do not include ancilar servces such as evaluation,
teacher trg, dissemiation , and cunculum development The Deparent of Education
believes the lit on SLIAG adistrtive costs is to strgent and would not alow the
progrs to be implemented on a full- basis.  ti
FINDING: The State ha     not developed a method to determine   ducation program
adnistrative costs.

Prgr adstrative costs         ar captued on two documents, which the adult basic education
agency submits to the Deparent of Education. One is a Summar of Costs document
itemizing al personnel and program costs. The second is a Reimbursement Request form
categorizig expenditus by code number. Both documents relate to reimburement for
actual expenditus. Ths is not consistent with the SLIAG regulation , which provides that
these costs must be alocate to SLIAG in either the sam proporton that eligible legalized
alens are representative of the tota number of individuals served, or the tota cost of the
progr.
RECOMMENDATION: The Colorad Department of Education should ensure that
providers of educational services are properly calculating education program adinistrative
costs.

Drawdown of Funds and Cash Balances

Ths process is identical to the system the Deparent of Education uses. The Deparent of
Education submits the appropriate report to the Deparent of Social Servces. This report
wi be the supportg documentation used to reimbure the Deparent of Education. The
trsfer of fuds wil be        though an interagency voucher or a      dit voucherig proess. The
Deparent of Social Servces does not advance funds for progr costs.


CROSSCUTTNG ISSUES
Colorado offcials were concerned with FSA' s untiely proessing of its State application.
They believed the following:




                 legalze    aliens;
                 that ths delay created a slowdown in providig       the servces neeed by eligible


                 that a " lack   of trst"   exists in FSA;

                 that FSA believes the       priar
                                                 intention of SLIAG is to provide servces and
                 assistance to eligible legalized aliens without any major effect on the existig
                 system for programs;

                 that FSA is more concerned with budget cuttg        and  has made implementig the
                 progr     more dicult, thus        impedig the State s abilty to provide servces to
                 eligible legalzed alens; and

                 that too much Federa involvement affects gettng the servces to the eligible
                 legalze alens.
FINDING: The FSA application review process created anwner of signifcant problems for
Colorad. Also, the FSA's application review process interfered with the State s ability to plan
for services.





                 Delay in FSA issuing the implementing regulation resulted in the State
                 inabilty to properly plan for SLIAG.
                                                                  .. -.. -




              Numerous policy misinterpretations and disagreements resulted because FSA
              did not provide definitive wrtten instrctions to assist Colorado in
              understadig SLIAG application requirements.


              The tie fres were too short for submittig the initial SLIAG application
              FSA review and comment, and revisions of the application.

              No form appeals process exits if programs or costs are denied in the
              fit-level review.

Accordig to fmal regulations published Marh 10, 1988, States had to submit the FY 1988
application no later than May 16, 1988. Revisions to the application had to be submitt by
July 1 ,1988, and the FY 1989 application had to be submitt no later than July 15, 1988.
Applications were to conta brief descrptions of the State progrs or servces, estiates
of the State s SLIG-relate costs for each program or activity for that parcular fiscal year
(includig inormation on the number of eligible legalze alens residig in the State), and a
brief explanation of the methodology used to estimate these costs.

Due to these short tie fres, FSA was not able to provide feeback on revisions necessar
in the State s FY 1988 application. The informtion was trsmitted by telephone or in
meetigs. The   ti    frames to mae necessar revisions did not accommodte the
organzational strctu or the nee to communicate with or seek approval from the progr
components afecte by revisions reuested by FSA. Although some changes had a major
effect on progrs and grant amounts, the single point of contact received no offcial rationale
frm FSA    for requestig the changes. This could place the single point of contact or the sta
person who assumed responsibilty for revisions in an awkward position should the changes or
the amount of the grt be questioned

The FSA did not provide for paral funding nor conditional approval of applications, nor did
the FSA provide for an appeals proess when programs, costs, or methodologies were not
approved

RECOMMENDATION: The FSA should mae its application and grant process more
orderly. Specifcally, FSA should


             provide definitive wrtten instrctions on the SLIAG application requirments
             and establish a dialogue with Colorado on SLIAG policy, compliance, and
             reportng issues to miimize the confusion that occur in the initial application
             process;




                                              16 .
                    tie
ensur that sufficient       is allotted to the application process includig
Colorado s intial application , FSA' s review and formal comment, Colorado
consideration of FSA comments and negotiation of disputes, and its submission
of the revised application for FSA approval; and

develop an appeals process to use if progr or costs associated with providig
servces ar denied in the initial application proess.
                         OIG RESPONSE TO COMMENTS


The FSA and the State of Coloro both commente on the drt report.

THE FSA

The FSA has generaly   agr   with the OIG report fidigs and reommendations. The FSA
has taen a number of stes to improve implementig the SLIAG progr includig
claryig progr policies and proedurs. In the report the State had several concerns
about the FSA adstration of the progr. We have modfied        cert aspects of the report
based on the comments reeived frm FSA.

The FSA questioned the statement that the new population would signcantly increase public
assistace and public health assistace servces. Early estiates indicated that large numbers
of alens would qualy to access the SLIAG progr. The report recogned that inormation
obtaed durg the review determed that substatial incrases in workloads and
expenditus could occur in these program areas as well as in education. However, we
understad frm recent discussions with State offcials that demand for servces isfalg
behid earlier projections. We reported that there is no formal appeals process if progr
costs ar denied in the fit level review. We agr with FSA' s statement that the Grat
Appeals Boar does have jursdction over mattrs for witholdig and repaymnt of SLIAG
funds. However, it was the State s concern that an effective appeals mechanm be in place
for issues involvig progrs or costs at the fial level of FSA's review in the application
process.

The FSA made numrous comments to clary cert matters of fact, policy, or proedure.
have included these comments verbati in appendi B.

The Stae of Colorado

The State has generay  agr  with our fmdings and recommendations. Their comments
included verbati in appendi C.
 APPENDIX A



GOOD PRACTICES

A number of practices have been identied that other States could          har.

     Because counties   adster    cash assistace progrs in the State, the State had no sys­
     tem to reimburse counties for SLIAG-related expenditus. At the tie of the inspection
     Colorado was developing such a system. To claim reimburement, counties will use ex­
     istig automate systems-the Client Orente Inormation Network and the Medcaid
     Maagement Inoration System-to document, accumulate, and report program costs
     for individuals presentig the 1-688, Temporar Resident Card. In foster care, provider
     payments wi be identied in the foster car payrll system using two new distict cate­
     gor cods. Since expenditus must occur before reimburement is made, the system
     used wi show that excess cash balances do not exist at the servce provider level.


     Under fundig   agrments with the Colorado Deparent of Education , varous agencies
     that can provide an ongoing adult basic education program must separately account for
     SLIAG expenditus before reimburement is mad. The agreements stipulate that agen­
     cies reeivig funds under SLIAG must collect and report data to the Colorado Depar­
     ment of Education. They wi then document or veri enrllent, attndace, progrss,
     certcation, and    progr expenditures.

     Thugh a Medcal Case Management Progr, the Colorado Deparent of Health in­
     tends to elevate the health status of neey individuals to approxitely that of the general
     population of the State.


     The Colorado Deparent        of Health   also intends to recrit,   hi, tr,   and supervse par-
     professional communty health workers who ar ethcaly, ligusticaly,               and cultualy
     sensitive to its servce population.


     To increase involvement of eligible legalize aliens in educational program, a local orga­
     nization choosing to offer services to eligible legalze alens will be requied to develop
     signcant outrach activities. These wi be submitt as par of the Plan of Servce sub­
     mitted to the Colorado Deparent of Education s SLIAG Adult Education Ofce in re­
     spnse to a request for proposals.
J'


       APPEDIX 8



     FSA' S COMMENTS
; . :	                                      -.    ...   ", .. .'..'-..           ,.. .. .".
                                                                               ;,.;     ,,'.';.;""    ': .   , ''-
                                                                                                               ""
                                                                                                              :, .       : .   .;    .--
                                                                                                                                :.:' .. ': .!:: -  ",
                                                                                                                                                " :.
                                                                                                                                                   . "




                                                                                                                                                         APPENDIX B

         - ..IC,.

                          DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                                                                        mlly Support Administration
                                                                                                                                                     Offce of Refugee Resettemen'.



                          Refer to:                                                                                                                  Memorandun
              Date:	      July 11, 1989

              From:       Acting Assistant Secretary
                            for Family Support

              Subiect:	   OIG Draft Report: Implementation of the State Legalization
                          Impact Assistance Grants Under the                                         Imigration Reform                                       and
                          Control Act of 1986 - State of Colorado                                             (OAI-07-88-00443)
              To:
                          Richard P. Kusserow

                          Inspector General


                          Attached are the Family Support Administration comments on
                          the above report. Many of our coments are technical in
                          nature due to the complexity of the legislation and the

                          fact that the SLIAG program was very new at the time of the

                          review.
                          We appreciate the assistance and cooperation we have

                          received fran you in response to our request to conduct this

                          round of reviews of the SLIAG program. The reports we
                          received are very useful to us in understanding how States

                          are implementing the program.




                          Attachment




                                                                                                                          : C



                                                                                                                 r ..,
                                                                                                                                    i:




                                           lS :           rU t I lnr 

                                                                                      SS6J
                                             r:..:      "1 ",            I.'

                                                                    ::J
                                                                                 B-1
                        OIG DRA REPORT:

Implementation of the state Legalization Impact Assistance Grants
      Under the Immigration Reform and Control Act of 1986:
                             COLORA
The Family Support Administration' s comments are divided into
three sections: Comments   on background information and other
narrative material that does not relate directly to the draft
report' s findings, comments on the findings, and responses to the
draft report' s recommendations.
Harrati ve:
Page 1 (Background) -- The draft report says, "This new
population will increase the demand for' State public assistance
and public health assistance services significantly.    The draft
report isn t clear whose conclusion this is or upon what data and
analysis the conclusion is based. The final report should
clarify these points.

In the course of implementing SLIAG, we have discovered that
neither state and local public health programs nor, with few
exceptions, public assistance programs, inquire about legal
status.   This' suggests that at least some aliens were using these
services before legalization and that newly legalized aliens do
not represent a " new population" for public assistance and public
heal th assistance services. Preliminary cost data from States
suggests that newly legalized aliens     e accessing public
assistance services at rates far lower than the general
population.   There are indications that a backlog of public
heal th needs existed and was identified during the medical
examinations required of all applicants for legalization.
However, there is no data to suggest that, other than this
temporary bulge in demand for public health services, newly
legalized aliens will generate a significant increase in demand
for public health assistance or public assistance services.

Page 2 (Background) -- The draft report says, "states must
develop a method acceptable to FSA for determining
administrative costs. The final report should note that several
methods for determining the share of administrative costs in
ongoing programs that are allocable to SLIAG and which are
acceptable   a Driori are specified in the regulation at 45 CFR

402. 22 (b) - The process of determining SLIAG administrative costs
 (those costs incurred in administering the SLIAG grant itself),
like all costs associated with administering HHS grants, is
governed by 45 CFR Parts 74 and 92 and relevant OMB circulars.

Page 7  (Pulic Assistance Documentation of Eligible Legalized
Alien Status) -- The draft report states that the only proof of
identification Colorado will accept for eligible legalized alien

status is an 1-688 temporary resident card. The final report

should note that eligible legalized aliens have that status for

five years from the effective date of lawful temporary resident


                              B-2

status.  However, during that time period, they will move from
temporary resident to permanent resident status. When they do

so, they will be issued permanent resident cards (1-551), which

will include documentation of eligible legalized alien status.


Page 8 (Pulic Assistance Program Costs) -- The draft report

states that, " program costs identified will           be shown on a

quarterly Federal financial report required            by SLIAG

regulations. " The final report should note            that the regulation

at 45 CFR 402. 51 requires annual reporting,           not quarterly

reporting.
Page 13 (Education) -- The draft report says, "A local
organization choosing to offer educational services to eligible
legalized  liens will be required to develop significant outreach
and public relations activities as part of its Plan of Service.
Outreach to let potential students know about availability of
educational services is an allowable administrative cost (within
statutory and regulatory funding ceilings for
                                                          ducational
activities" are in the context of this description.relations
services) . It is not clear, however, what " public
                                                     The final
report should' make clear how " public relations activities" relate
to providing educational services as defined in Federal
regulation at 45 CFR 402.

Additionally, page 13 of the draft report says, "A funding floor
will be e$tablished for those programs where small numers would
result in a reimbursement too small to cover the cost of

instruction. II Because IRCA applies the definitions and
provisions f the Emergency Immigrant Education Act (EIEA) to use
of SLIAG funds for educational services, the regulation at 45
CFR 402. 11(e) limits the amount the State education agency may
pay to a service provider to the lesser of actual costs or $500
mul tiplied by the numer of eligible legalized aliens served.
The regulation at 45 CFR 402. 2 defines educational services for
adults as those activities that are authorized by the Adult
Education Act as in effect November 6, 1986. As the draft report
notes, these activities include certain ancillary services. FSA
has not specified methods States must use to calculate costs.
However, the final report should note that the funding
limi tat ions described above do apply to all educational services
provided with SLIAG funds.
Page 15 (Crosscutting Issues) -- The draft report quotes Colorado

officials as saying that a "lack of trust" exists in FSA. We are
perplexed as to the meaning of this statement. The final report
should clarify the point. FSA does not distrust Colorado
officials.  However, we believe it is our responsibil ty to
administer SLIAG in a business-like fashion. In some cases, this
has meant asking for more detail than the State submitted in its
original applications or asking for the basis on which the State

                                                B-3

has made statements or assertions. We do not believe that any

such inquiry demonstrates a "lack of trust.


The draft report also quotes Colorado officials as saying, "FSA

bel ieves the primary intention of SLIAG is to provide services
and assistance to eligible legalized aliens without any major
effect on the existing system for other programs.    The meaning
of this statement is unclear, and the final report should
provide clarification. The final report also should note the
"intention of SLIAG, " which is laid out in IRCA. In brief, it is
(1) to reimburse state and local governent costs associated with
providing public assistance and public health assistance services
(as those terms are defined in IRCA and in Federal regulation) to
eligible legalized aliens within ongoing programs, and (2) to
provide certain educati nal services to eligible legalized
aliens.
Colorado officials further are quoted as saying that "FSA is
more concerned with budget cutting and has made implementing the
program more difficult, thus impeding the State' s ability to
provide services to eligible legalized aliens.    It is not clear
to what the reference to providing services to eligible legalized
aliens refers because, as noted above, under IRCA, SLIAG funds
may not be used to provide public assistance or public health
assistance designed specifically for eligible legalized aliens.
FSA is committed to ensuring that States may claim all legitimate
SLIAG-related costs. The reference to "budget cutting" appears
to refer to FSA' s response to cost estimates in the State'
application that were not based on any empirical data. Because
half of SLIAG funds are allocated based on each State' s share of
the cost of all States, if one state overestimates its costs,
that State would receive more than its share of funds and other
States would receive less than their  share.  Thus, in order to
assure fairness, FSA reviewed state cost estimates in accordance
wi th criteria specified in the preamble to the regulation and
applied consistent standards among states. The final report
should note these points.
In the draft report, Colorado officials are said to believe "that

too much Federal involvement affects getting the services to the
eligible legalized aliens.   The meaning of these statements is
unclear, and the final report should provide   clarification,
especially in light of the fact that IRCA allows only educational
services funded with SLIAG to be directed specifically to
eligible legalized aliens.

Findi
Finding:   Since 1987, FSA has held national conferences and
           issued information to states on implementing the SLIAG
           program.
Comment:   Since the OIG' s onsite visits in August 1988, we have

           continued to provide assistance to States. We have

           conducted several more workshops and meetings to assist

           states in implementation. In October 1988, we issued a

           compendium incorporating the extensive formal guidance

           previously provided to States on methods of cost

           documentation. We also have provided assistance to

           individual States in the form of correspondence,

           telephone consultation, and onsite technical

           assistance. We are in the process of conducting

           initial program reviews of the major States, and intend

           to visit selected other States as well.   We request
           that the final report reflect this continuing dialogue

           with States.
Finding:   Colorado established a structure to identify

           organizational and program needs.

Comment:   The draft report on page 4 lists a riumber of steps
           Colorado took to identify " organizational and program

           needs.           (Some of these steps also are featured in the
           Appendix, "Good Practices, " which the draft report

           suggests could 
        e emulated by other States.   It is not
           clear from the description of these steps that the
           statute and regulation limit use of SLIAG funds for
           public assistance and public health assistance to
           activities that are " generally available.          This means
           that States may not use SLIAG funds to set up pUblic
           assistance or public health assistance programs
           specifically for " eligible legalized aliens. The
           final report should make clear how this requirement

           relates to the State actions featured in the draft

              ort.
           In making this clarification, the draft report also

           should address the statement on page 6 that, "The

           Medically Indigent Program for eligible legalized

           aliens will follow the same practices as the State I
           current Medically Indigent Program, including the
           coverage of services and the patient' s ability to pay.
           The next paragraph states that the Department of Social
           Services has entered into an agreement with the
           Department of Health to provide services "for eligible
           legalized aliens located in an area not served by a
           Medically Indigent Program provider.    This description
           suggests a program set up specifically for eligible
           legalized aliens and fails to make clear how the
           program complies with the " generally availa le"
           requirement.
           The same issue arises on pages 9-10. The draft report

           lists a number of Department of Health


                                  B-5
                                              " "




           responsibilities. These include: " negotiate and
           subcontract the services of community health workers

           for eligible legalized aliens...,   coordinate a

           medical authorization system for eligible legalized

            al iens in cities, towns, or counties... where a
           Medically Indigent Program provider is not reasonably

           accessible, . and " operate a medical authorization
            system" to make payments to providers with .the proviso
           that . cost of reimbursement cannot exceed the
           Departent of Social Services' Medically Indigent
           Program rates for similar services.        The Department of
           Heal th also is charged with coordinating the Medical
           Case Management program for eligible legalized aliens,
           as described above, and with recruiting, hiring,
           training, and supervising paraprofessional community
                al th workers " who are ethnically, linguistically, and
           :culturally sensitive to eligible legalized aliens.
           is not clear from the description that any of these

           responsibilities are part of a program or activity that

           is generally available to the population, as IRCA and

           the regulation at 
     5 CFR 402. 2 require. The final
           report should clarify whether these are, in fact, part

           of generally available programs or services.

Finding:   The FSA application process created a numer of
           significant problems for Colorado. Also, the FSA'
            pplication review process interfered with the State'
           ability to plan for services.
Comments: The draft report says that the time period for
           submission, review, revision and approval of the
           initial application was too short. We agree that it
           would have been preferable to have had a longer period
           of time between the publication of the final regulation
           and the deadline for submission and approval of FY 1988
           and FY 1989 applications. However, the final report
           should note that, because of the way IRCA set up the
           allocation formula, one major reason for the compressed
           time frame was that we could not award funds to any
           State until all States' applications had been approved.
           In order for us to run the allocation formula, which
           IRCA requires to include estimates of costs, we must
           have approved estimates for all states before we can
           calculate States' allocations.
           Page 15 of the draft report says that " numerous policy
           misinterpretations and disagreements resulted because
           FSA di not provide definitive written ins ructions to
           assist Colorado in understanding SLIAG application
           requirements. " Had there been more time, we would have
           communicated more extensively in writing. Our current
           practice is to communicate in writing on all
                                 B-6
            substantive issues regarding state applications,

            amendments, and end-of- year reports.

            The report says that no formal appeals process exists
            if programs or costs are denied. The Grant Appeals
            Board has jurisdiction over issues related to the
            wi thholding and repayment of funds. For other matters,
            the State may follow normal procedures for disagreeing
            with an agency finding.
            On Page 16, the draft report states that, -the single
            point of contact received no official rationale from
            FSA for requesting the changes. to the cost estimates
            in the initial application.  In cases in which we did
            not accept initial State cost estimates, we

            communicated to the state that it had not provided

            data to back up its estimates.





Recommendations:
Recommendation:
            The FSA and the Immigration and Naturalization Service
            (INS) should further clarify what is meant by . public
             harge. and widely disseminate this information to th
            alien population who have raised concerns about its

            resident status.
Response:
            Under IRCA and the Immigration and Nationality Act, the
            INS alone is responsible for determining whether
            individuals are likely to become public charges. FSA
            cannot establish policy on this issue. Nor can FSA
            disseminate information directly to the alien
            population. INS is precluded by IRCA from providing
            names and addresses of eligible legalized aliens to
            outside agencies

            However, we agree that it is important that all

            concerned know INS policy on the public charge issue.
            INS representatives have made presentations at

            virtually all of our workshops and conferences. 

            these meetings, States have been able to ask questions

            and receive direct information from the INS- We have
            communicated to States all information provided to us

            by INS on this and other pertinent issues, and will

            continue our policy of disseminating any relevant

            information that we receive.


                                B-7
            The Department also has indicated its support for a

            legislative change to allow states to use a small

            portion of their SLIAG grants to inform temporary

            residents of the requirements for adjustment to lawful

            permanent resident status and of the rights and

            responsibilities of lawful temporary residents. Such
            use is not permitted under current law.

Recommendation:
            The FSA grant process should be made more orderly.

Response:
            The draft report. srecommendation refers to the
            FSA grant process, but the specifics indicate

            that it is referring to the SLIAG application

            and grant award process. The language of the

            recommendation should be more specific.


            We agree that the application process should be

            conducted in a more orderly fashion than was the case

            for the initial submissions. As the draft report

            indicates, the timeframes for the FY 1988 and FY 1989

            application processes were necessarily short. 

            effect, the states and we had to complete two

            application processes in less than a year. We do not:

            expect similar problems for the FY 1990 and FY 1991

            application processes.


            To ensure that states have adequate time to prepare

            their FY 1990 applications based on empirical data, we

            have extended the deadl ine from July 15 to October
            Addi tionally, we have encouraged states to submit. as
            early as possible any questions, issues, or

            descriptions of new programs, and have advised them

            that they may submit all or portions of their

            applications at any time.


            In order to reduce the possibility of misunderstanding,

            we have advised states that we will communicate all

            substantive questions and concerns on their FY 1990

            applications in writing, as was done for states' end-

            of-year reports. We issued extensive written guidance
            on the FY 1990 application process and the standards we

            will apply.


            The draft report also recommends that we develop an
            appeals process to use if programs or costs associated
            with providing services are denied in the initial
            applications process. We do not believe such a process
,,




     is necessary. The Department I s Grant Appeals Board has
     jurisdiction over cases involvinq the repayment or

     withholdinq of funds.  Normal channels within the
     Department are open to states that disaqree with

     decisions made durinq the course of application review.




                         B-9

(\




         APPENDIX C


     COLORADO' S COMMENTS
,.                             :,: .   q:-.,\
                                            ":..   ,.         : . ,.- .
                                                        ::'. ; .                      .. .
                                                                                      ,,(. "   _.. ''   ,,        - "--. "

                                                                                                                                  APPENDIX C



                                                                            STATE OF                         COLORAO
     DEPARTMENT OF SOCIAL SERVICES
     1575 Sherman Stre.:t
     Denver , Colorado 80203
     Colorado Refugee and Immigrant Services Program
     190 East 9th Avenue. Suite 300
     Denver . Colorado 80203
     Phone (303) 863- 8211                                                                                                        Roy Romer
                                                                                                                                  Governor
                                                                                                                                  Irene M, Ibarra
                                                                                                                                  Executive Director




                                                                           July 10,      1989




              Richard P. Kusserow

              Inspector General

              Department of Health and Human Serv ices

              Office of Inspector General

              Washington, DC 20201

              Dear Mr. Kusserow:

              Thank you for the draft copy of your staff' s analysis of the

              implementation of the state Legalization Impact Assistance Grant

              in Colorado. The Department of Social Services appreciates the

              opportunity to comment because we believe that one finding of the

              report attributes a greater fund vulnerability than actually

              exists.
              The finding, reported on page 14 of the draft copy of the
              implementation analysis, states liThe state has not developed a
              method to determine education program administrative costs"
              This finding is characterized on page iii as representing "funds
              control vulnerabilities. While the finding itself is correct,
              it is likely that the state failed to communicate to the reviewer
              that an early administrative decision of Colorado' s SLIAG
              implementation was to allow education providers to bill
              instruction costs as actual costs including technical assistance,
              but program administrative costs were not included. Thus the
              reporting structure for billing has no place for pro- rated
              program administrative                                      costs.
                                             This decision was taken partially
              due to uncertainties around the numbers of persons who would seek
               educational services and because of uncertainties of allowabili
               of program administrative costs by HHS. Colorado is now,
               however, examining a method of allowing program administrative
               be incorporated. 

               costs and the recommendation of the ' analysis will most certainly


                                                                                                        6 \ lnf E
                                                                                   9 t; :Z \\6
                                                                                                                        T:: :,

                                                                                                             .I
                                            11- ,

                                                                                   C-l
,'




     Richard P. Kusserow

     July, 10, 1989

     Page 2





     Colorado believes that both the finding and recommendation have
     merit, but to characterize that finding as a fund vulnerability
     may overstate the actual circumstance.
     Once again, we appreciate the opportunity to comment on the draft

     analysis.
                             - Sincerely,


                                        Bagan
                              state Coordinator

                              Colorado Refugee and Immigrant Services

                              Program
     LB/wg




                                     C-2

